NO. 20-74
In the

Supreme Court of the United States
UNITED STATES,
Petitioner,
V.

IMAGE PROCESSING TECHNOLOGIES LLC, ET AL.,
Respondents.
CERTIFICATE OF COMPLIANCE
I hereby certify that I am a member in good standing of the Supreme Court Bar and,
as required by Supreme Court Rules 33.1(h), the Brief for Respondent Comcast Cable
Communications, LLC contains 895 words, excluding the parts of the petition that
are exempted by Supreme Court Rule 33.1(d).
Dated: August 26, 2020

Respectfully submitted,

Arn Jacobsen

